OIG Audit Report GR-50-07-001

Office of Victims of Crime Identity Theft Verification/Passport Initiative Administered by the Ohio Attorney Generals Office, Columbus, Ohio

Audit Report GR-50-07-001


November 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the  Identity Theft Verification/Passport cooperative agreement awarded by the U.S. Department of Justice, Office for Justice Programs (OJP), to the Ohio Attorney General’s Office, Crime Victims Services Section (CVSS). The purpose of the cooperative agreement (hereinafter referred to as the “grant”) is to assist the CVSS in its efforts to provide victims of identity theft with a means of demonstrating to law enforcement and creditors that their identity has been stolen, thereby enabling them to curtail further harm to their criminal and credit histories.OJP awarded a total of $249,352 to the CVSS, and grant records show a total of $249,352 in grant-related costs all of which has been reimbursed by OJP.
 Our audit included a review of the CVSS’s accomplishment of grant goals  and compliance with five essential grant conditions: (1) matching cost commitments, (2) grant expenditures, (3) grant drawdowns, (4) budget management and control, and (5) grant reporting. We tested the grant accounting records to determine if reimbursements claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant. Specifically, we tested all federally reimbursable direct costs incurred through July 6, 2005, such as consultant and contractual fees, equipment, and supplies. In addition, our audit included a review of the grantee’s matching cost commitment of $154,657 consisting of salaries, fringe benefits, and additional supplies.
 We found that the CVSS’s controls over federally reimbursed expenditures were adequate to ensure that such expenses were properly accounted for and that transactions were accurately recorded and supported. However, we noted that the CVSS could not support that it provided the salary, fringe benefit, and supply costs that it was required to provide as local match. As a result, we questioned the totality of the local matching costs of $154,657.1
 These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology appear in Appendix II. We discussed the results of our audit with officials from the CVSS and have included their comments in the report, as applicable. In addition, we requested a written response to our draft report from the CVSS and OJP, which are included in this report as Appendices III and IV, respectively.



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix I for a breakdown of our dollar-related findings and for the definition of questioned costs.